No.

 

IN THE SUPREME COURT OF THE UNITED STATES

BRIAN CHARLES ZELLNER, PETITIONER
v.
THE STATE OF GEORGIA, RESPONDENT

CERTIFICATE OF SERVICE
I, John W. Donnelly, a member of the Bar of this Court, certify service of
copies of the Motion for Leave to Proceed in forma Pauperis and Petition for Writ
of Certiorari on counsel for the Respondent by hand delivery to Brian Patterson,
Acting District Attorney, 325 East Washington Street, Athens, GA 30601, before
mailing the original and copies to the Clerk.
Brian Patterson, Acting District Attorney
325 East Washington Street
Athens, GA 30601
(706) 613-3240
Brian.patterson@accgov.com
Further, the original and ten (10) copies are mailed today to the Clerk of
the United States Supreme Court by United States Postal Service first-class mail
to 1 First Street, N.E., Washington D.C. 30548 for filing.
This @ day of November, 2020.

Yi. Ub

Jdhn W. Donnelly
Counsel for Petitioner
Admitted to this Court January 8, 2007

  
